OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/UKRAINE’S
AGROINVEST PROJECT
AUDIT REPORT NO. 9-121-13-002-P
MARCH 31, 2013




WASHINGTON, D.C.
Office of Inspector General


March 31, 2013

MEMORANDUM

TO:                USAID/Ukraine Mission Director, Jed Barton

FROM:              Acting IG/A/PA Director, Nathan Lokos /s/

SUBJECT:           Audit of USAID/Ukraine’s AgroInvest Project (Report No. 9-121-13-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

This report contains ten recommendations to help strengthen the implementation of
USAID/Ukraine’s AgroInvest Project. Management decisions have been made on all
ten recommendations, and final action has been taken on Recommendation 7. The mission
should coordinate with USAID’s Audit Performance and Compliance Division (M/CFA/APC)
concerning final action on the remaining recommendations. Please note that we do not agree
with the mission’s management decisions on Recommendations 3, 4, 6, 8, and 9.

Thank you and your staff for the cooperation and courtesy extended to us during this audit.




U.S. Agency for International Development
Office of Inspector General
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 6

     Subaward Processes Contributed to Project Delays.............................................................. 6

     Shifting Priorities Hampered Market-Oriented Reforms ......................................................... 9

     Field Association Concept Poses Serious Risks.................................................................. 10

     AgroInvest Delayed Its Land Rights Public Education and Outreach Campaign .................. 12

     AgroInvest Did Not Fully Leverage Its Relationships With Financial Institutions .................. 13

     AgroInvest’s Reported Results Did Not Meet Data Quality Standards ................................. 16

Evaluation of Management Comments.................................................................................. 19

Appendix I—Scope and Methodology ................................................................................... 23

Appendix II—Management Comments .................................................................................. 25




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AMDI            Agrarian Markets Development Institute
CIDA            Canadian International Development Agency
COR             contracting officer’s representative
IPR             Implementation and Procurement Reform
PMP             performance management plan
OIG             Office of Inspector General
SMP             small and medium-sized producer
SUMMARY OF RESULTS
Vast, fertile plains cover approximately 70 percent of Ukraine. The Eastern European nation’s
favorable climate and rich soil give it immense agricultural potential. As a leading exporter of
grains and sunflower oil, Ukraine is poised to become an emerging player in global food
production and security.

Despite Ukraine’s successes, inefficiency plagues the agricultural sector. Although it accounts
for more than 10 percent of the gross domestic product and nearly 16 percent of the workforce,
the agricultural sector only operates at about a third of its production capacity.

Ukraine’s lengthy land reform process has transformed the ownership structure of agricultural
lands. During this process, the government dismantled its former collective farms and
transferred many of the newly privatized land plots to the ownership of approximately 7 million
rural residents. However, a long-standing moratorium on the sale of these plots stalled the
development of a land market. Instead, Ukraine’s agriculture sector operates in a leasing market
in which private landowners enter into medium- to long-term agreements with farmers or
agricultural enterprises in exchange for low rent. Since farmers and agricultural enterprises work
land they do not own, they have little incentive to invest in productivity-boosting improvements.
The absence of a land market and inconsistent legislation, priorities, and regulations have
impeded the productivity of Ukraine’s agriculture sector.

Small and medium-sized producers (SMPs) generate a significant portion of Ukraine’s
agricultural output, but their productivity is poor compared with larger, more dominant
agricultural enterprises. Ukrainian financial institutions often limit credit to these producers
because agriculture is inherently risky. When credit is extended, the financial institutions charge
high interest rates, typically ranging from 20 to 45 percent. This limits the ability of SMPs to
modernize and expand their operations. Furthermore, cooperation among SMPs remains low,
and weak market infrastructure, including a lack of post-harvest handling, consolidation, and
market facilities, reduces their overall competitiveness.

To address these issues and help Ukraine realize its agricultural potential, USAID/Ukraine
awarded Chemonics International Inc. a 5-year, $20.61 million cost-plus-fixed-fee term level of
effort contract.1 According to the contract, this project “will accelerate broad-based economic
recovery in Ukraine through the establishment of a more inclusive and competitive agricultural
industry. USAID/Ukraine designed the project to create: (1) less volatile and more market-
oriented agricultural policies that result in increased investments; (2) sustainable access to
financial services for SMPs; and (3) a more efficient market infrastructure for SMPs.”2

In August 2012 USAID/Ukraine modified the contract to decrease the total estimated cost of the
project by $1.85 million to $18.76 million. This modification also reduced the project’s scope of
work by removing the requirement to oversee a subcontract with the Agrarian Markets
Development Institute (AMDI), a Ukrainian nongovernmental organization working, in part, to
1
  According to Federal Acquisition Regulation Subpart 16.306, “A cost-plus-fixed-fee contract is a cost-
reimbursement contract that provides for payment to the contractor of a negotiated fee that is fixed at the
inception of the contract . . . The term form describes the scope of work in general terms and obligates
the contractor to devote a specified level of effort for a stated time period.”
2
  This report refers to these as Components One, Two, and Three. There are three tasks under
Component One, one under Component Two, and two under Component Three.


                                                                                                         1
reform agrarian policy and develop agricultural markets. Project implementation is expected to
run from January 2011 to January 2016.

USAID’s Office of Inspector General’s (OIG’s) Performance Audits Division conducted this audit
as part of its fiscal year 2012 audit plan. The objective was to determine whether
USAID/Ukraine’s AgroInvest project was achieving its main goal of accelerating broad-based
economic recovery through activities that support a stable, market-oriented policy environment;
stimulate access to finance; and facilitate market infrastructure for SMPs.

AgroInvest had several notable successes in its nearly 2 years of implementation.

   AgroInvest suggested revisions to Ukraine’s draft law on a land market, and staff members
    said some of the revisions appear verbatim in the current version. Additionally, AgroInvest
    succeeded in removing some provisions from the draft law.

   AgroInvest assisted with finalizing the law on agricultural cooperation that improved the
    legal, tax, financial, credit, and economic conditions for agricultural cooperatives. Approved
    by Parliament on October 16, 2012, the law establishes not-for-profit status for agricultural
    cooperatives and removes the system of double taxation of agricultural cooperatives and
    their members that sell produce through the cooperative.

   Representatives from partner credit unions and groups in the value chain3 were trained to
    assess a potential agricultural borrower’s creditworthiness. AgroInvest also helped develop
    tools to analyze a potential borrower’s financial position and reduce the risk of default.

   AgroInvest sponsored training, field days, study tours, and workshops facilitated by partner
    credit unions to encourage crop diversification among their agricultural members.




      Ukrainians learn about garlic production during a training event sponsored by
      AgroInvest and a credit union. (Photo by OIG, September 25, 2012)


3
 A value chain includes all activities required to produce a product or service and deliver it to the final
customer. Value chains include activities such as production, marketing, and distribution.



                                                                                                         2
   AgroInvest developed a new type of loan for the purchase and installation of equipment
    necessary to establish modern greenhouses. Credit union officials said their members were
    interested, and several have already issued loans for new equipment.

   Several cooperatives, marketing groups, and producer groups were trained in business
    planning. Beneficiaries said the training helped them project revenue better and make more
    informed decisions. After the training, some groups applied for AgroInvest grants. Although
    AgroInvest had not awarded any grants to these groups as of September 30, 2012, many
    are in the approval process.

AgroInvest is helping developers of several regional and wholesale markets navigate the land
allocation, business planning, market design, and feasibility study processes. At least two of
these markets are running temporary stalls where local farmers can sell their produce, like the
one in the photo below, while permanent structures are under construction.




       Producers in Kherson Oblast sell their goods from this temporary stall in a
       wholesale market that is receiving assistance from AgroInvest. (Photo by OIG,
       September 27, 2012)

Despite these achievements, AgroInvest is not achieving its main goal. Delays impeded the
project’s implementation, which is estimated to be at least 1 year behind schedule.

Lack of stable leadership at Chemonics and USAID/Ukraine contributed to the delays.
Three chiefs of party and three contracting officer’s representatives (CORs) have led AgroInvest
since it began 2 years ago. The changes in chiefs of party have been particularly disruptive
because each new leader needed time to become familiar with the project’s activities and
develop his direction for it.



                                                                                                  3
Chemonics hired well-qualified professionals to lead each of the project’s three components.
However, many had little experience working on USAID-funded projects, and that created a
learning curve that slowed down the awarding of subawards and, consequently, the
implementation of project activities (page 6). It also prompted the Chemonics home office to
play a more active role in managing AgroInvest, which contributed to the project’s slow
implementation.

Although AgroInvest’s staff prepared timely work plans outlining the activities that were to be
undertaken each year, USAID/Ukraine required them to perform additional, unscheduled tasks
that caused more delays. For example, at the mission’s request, the policy team prepared an
additional framework assessment, which diverted time and resources from the defined priorities
under Component One (page 9).

USAID/Ukraine’s insistence on promoting two concepts,4 meant to facilitate the transition to a
land market once the Ukrainian Government ends its moratorium on the sale of agricultural
land, also contributed to the project’s delays (page 10). Although one of the concepts, that of
field associations, is still being developed, USAID/Ukraine urged AgroInvest to begin the work
necessary to set the stage for its eventual implementation. This prevented AgroInvest from
awarding grants for critical activities under Component One until the two concepts could be
incorporated into the grantees’ scopes of work.

In addition, the audit found that:

   AgroInvest delayed the start of its land rights public education and outreach campaign
    (page 12). The project lost time and opportunities to educate rural landowners on their land
    rights.

   AgroInvest did not fully leverage its relationships with financial institutions (page 13).

   AgroInvest’s reported results did not meet USAID’s data quality standards (page 16).

To address these issues and to strengthen the effectiveness of USAID/Ukraine’s AgroInvest
project, we recommend that USAID/Ukraine:

1. Work with Chemonics International Inc. to implement a plan to streamline the subaward
   process for the AgroInvest project (page 8).

2. Work with Chemonics International Inc. to provide and document training for AgroInvest staff
   on relevant USAID regulations for awarding subawards, such as conducting environmental
   review and assessment checklists (page 8).

3. Reassess AgroInvest’s policy priorities and implement a plan to achieve these priorities
   during the remainder of the contract (page 10).


4
   The two are the owner finance concept and the field association concept. According to AgroInvest, the
first one “revolves around a landowner lessee ‘financing’ the purchase of his/her land by a tenant farmer.”
The field association concept “envisions the creation of an association of landowners for each land mass
farmed as a single unit and allowing the association to negotiate as a single party with lessors of the
field.”


                                                                                                         4
4. Solicit the assistance of independent experts to review in writing the field association
   concept for economic, political, and social impacts, and to develop and document alternative
   models for consideration (page 12).

5. Refrain from allocating more resources to the field association concept until a full,
   independent legal review can be conducted. If this review deems that the concept is not in
   line with the Ukrainian Constitution, we recommend that USAID/Ukraine discontinue its work
   on it and document that determination (page 12).

6. Conduct an independent analysis of the field association concept to determine whether it is
   in line with the strategic priorities of the U.S. Government for the independent states of the
   former Soviet Union. As part of this analysis, USAID/Ukraine should vet the concept with
   appropriate U.S. Government officials at the Embassy and document the results (page 12).

7. Work with Chemonics International Inc. to immediately implement a public education and
   outreach campaign that focuses on basic land rights and can be expanded if and when the
   legislation on a land market is finalized (page 13).

8. Perform and document an analysis that considers the use of a microfinance instrument or
   grants to fully leverage partners under AgroInvest’s Access to Finance component
   (page 16).

9. Work with Chemonics International Inc. to reassess AgroInvest’s future relationship with
   commercial banks, dedicate more resources to activities with credit unions, and document
   the results (page 16).

10. Work with Chemonics International Inc. to implement a plan to verify that the results
    reported by AgroInvest comply with the data quality standards outlined in Automated
    Directives System (ADS) 203.3.11.1 (page 18).

Detailed findings follow. The audit’s scope and methodology are described in Appendix I. Our
evaluation of management comments is on page 19. The full text of management comments is
in Appendix II.




                                                                                               5
AUDIT FINDINGS
Subaward Processes Contributed to
Project Delays
AgroInvest has a $5,746,4555 budget for local subawards, including subgrants and
subcontracts, to achieve its goals. The contract stipulates that the project “is expected to have a
higher burn rate in its first years when the major subgrants will be awarded and feasibility
studies will be commissioned. The contractor will therefore appropriately plan for a higher burn
rate during the first years of the project and decrease this rate during the final years.”

The contract specifies that AgroInvest will award grants under Components One and Three. For
Component One, to support a stable, market-oriented policy environment, USAID/Ukraine
required AgroInvest to:

        Ensure that Ukrainian organizations will have the leading role in the
        implementation of this task. The political scene in Ukraine is characterized by
        entrenched relationships, shifting government leaders and a complex array of
        laws and regulations. Ukrainian organizations are better able to navigate this
        environment.

Additionally, the project plans to help strengthen 20 industry associations with grants worth up
to $40,000 per organization.

For Component Three, to facilitate market infrastructure for SMPs, the contract states, “Support
to cooperatives/producer organizations is a promising strategy to build the necessary market
infrastructure to increase productivity.” Chemonics is to select 20 producer organizations for
assistance and provide them with small grants worth up to $25,000 to support their projects.

Table 1 shows that as of September 29, 2012, the project had not awarded and disbursed funds
as quickly as the contract required. It summarizes the amount that AgroInvest approved and
disbursed for subawards compared with its total budget for subawards.

                   Table 1. Summary of Subawards Approved and Disbursed
                                       ($) (Unaudited)
                                                  Approved                Disbursed
                Subgrants                          658,761                  42,042
                Subcontracts                       570,273                271,903
                Total                            1,229,034                313,945
                Budget                           5,746,455              5,746,455
                Percent of Total Budget                  21                      5




5
 AgroInvest originally had a budget of $7.5 million for local subawards. In the fifth contract modification,
USAID/Ukraine reduced this amount by $1,753,545.


                                                                                                          6
The project did not sign its first grant agreement until June 11, 2012, 9 months into the second
year. Although the grant approval processes for the components were the same, the approval
timing and condition of the grants were unique to each component task. To date, AgroInvest has
only conducted one or two rounds of competition for the following tasks:

   Strengthen Industry Associations (Component One, Task B) had a round begin on April 10,
    2012. However, the six grantees under this task were not approved until July/August 2012,
    averaging 115 days from competition to grant approval by USAID/Ukraine.

   Provide Public Education for Land Rights (Component One, Task C) had a round begin on
    November 16, 2011. The first round of applications had to be reassessed because two of
    the four presentations did not support the proposals. AgroInvest then initiated another round
    to select a third potential grantee. The grant evaluation committee approved the grantees on
    March 15, 2012, yet the mission did not approve the grants until June 29, 2012—226 days
    after the competition began.

   Producer Organization Development (Component Three, Task A) had a first round begin
    January 25, 2012, and a second round begin April 30, 2012. The grant evaluation committee
    approved the first round on March 7, 2012, and the second round on June 27, 2012.
    However, as of September 29, 2012, the mission had not approved any grantees.

In addition, the contract originally required AgroInvest to work with AMDI. The project signed an
implementation agreement with AMDI on April 4, 2011, but did not provide the mission with a
grant proposal package until October 13, 2011.

According to AgroInvest staff and the COR, the project limited the number of grants awarded
because the applications they received were weak, unsustainable, and did not grasp the
project’s goals. In addition, grantees needed extensive training on USAID grant proposal
requirements to submit compliant applications. This work caused a significant delay.

For Component One, the constant shifting of AgroInvest’s and the mission’s priorities also
delayed the project’s grant approvals. For example, USAID/Ukraine officials required a grantee
to conduct focus groups on the two concepts. This was not included in the grantee’s original
scope of work, and it took 144 days to negotiate and incorporate the focus groups into the
signed agreement. The inclusion of these concepts should not have caused this significant
delay to a major activity focused on educating the public about land rights.

For Component Three, the project did not receive many proposals from producer organizations
from priority regions, despite having conducted planning-related training in these regions.
Officials from many of the organizations said they were not prepared or did not have the
capacity for the rigorous grant approval process.

Moreover, many of the delays in Component Three stemmed from the fact that AgroInvest’s
Ukrainian staff had little experience working on USAID projects. This is evident in delays caused
by having to spend 7 months redoing environmental review and assessment checklists that
were not conducted properly. As of September 29, 2012, no grants had been issued for this
component.

A mission official said AgroInvest’s inefficient internal grant processes contributed to the
unacceptably long delay in preparing the original AMDI grant proposal. After it was submitted in
October 2011, the mission decided to award a direct contract to AMDI to comply with USAID


                                                                                               7
Forward.6 While USAID/Ukraine pulled together the direct award for AMDI, the project placed
AMDI under a subcontract to continue its activities.

The poor management of the subaward processes and subsequent delays have led to a lack of
results. AgroInvest underperformed on many indicators in its performance management plan
(PMP).

In addition, the poor management has the potential to cause hardship for the beneficiaries and
be detrimental to USAID/Ukraine’s reputation. For example, AgroInvest notified one fruit and
vegetable producer in July 2012 of its successful grant application. The producer began
purchasing strawberry seedlings to be kept in a cold storage unit that would be purchased with
the grant funds. However, by late September, AgroInvest had still not awarded the grant.
According to representatives of the producer, if the cold storage unit was not in place by the end
of October, they risked losing the harvest cycle and their investment in the seedlings.




          A fruit and vegetable producer hoped to install a cold storage unit here that
          would be purchased with AgroInvest grant assistance. (Photo by OIG,
          September 25, 2012)

In another potential grantee’s case, a cooperative was building a dairy plant with assistance
from a major international organization and regional and local governments. The cooperative
applied for an AgroInvest grant in late February 2012 to help purchase a boiler, the final piece of
equipment needed before the plant could become operational. However, as of September 30,
2012, AgroInvest had yet to award the grant, and the dairy plant still was not in operation.

To address the issues identified in the subaward process, we make the following
recommendations.

    Recommendation 1. We recommend that USAID/Ukraine work with Chemonics
    International Inc. to implement a plan to streamline the subaward process for the
    AgroInvest project.

    Recommendation 2. We recommend that USAID/Ukraine work with Chemonics
    International Inc. to provide and document training for AgroInvest staff on relevant


6
 USAID Forward is an agency initiative that requires missions to build local capacity by providing more
awards directly to local organizations.


                                                                                                     8
    USAID regulations for the awarding of subawards, such as conducting environmental
    review and assessment checklists.

Shifting Priorities Hampered
Market-Oriented Reforms
The AgroInvest contract for Component One, Task A, Accelerate Market-Oriented Reforms,
states, “AgroInvest will improve public private dialogue, and provide assistance to Ukraine to
design and implement sustainable market oriented and [World Trade Organization]-compliant
agricultural reforms.” The project will address areas such as “land reform, taxes, agricultural
finance, cooperative legislation, tariff and non-tariff barriers, subsidies and the fine tuning of
wholesale market legislation.” In addition, “USAID will closely monitor agricultural policy reform
activities, and if progress is not evident, the project will elect to shift its emphasis and resources
to other components and tasks.”

Moreover, AgroInvest’s strategic policy priority needs assessment, issued in September 2011,
identified five priority areas: (1) trade policies, (2) taxes and subsidies, (3) financial market and
credit policies, (4) land market development, and (5) market infrastructure investment. This
strategy lists criteria for undertaking policy dialogue and a proposed policy framework that sets
short- to long-term goals for the project. Criteria include:

   Does the policy question have a reasonable likelihood of implementation?
   Does it address AgroInvest’s comparative advantage?
   Is it appropriate for AgroInvest to address?

The market-oriented reforms task has not had much success due to AgroInvest’s continued
focus on the draft law on a land market, ad hoc requests, and the Ukrainian Government’s lack
of interest in stated priority areas.

Activities for the first 2 years of the project primarily focused on the draft legislation on a land
market. This was because the Ukrainian Government was moving quickly and the project
needed to be vigilant of the constant changes to the draft. The activities related to this
legislation were vital and accounted for in the contract and strategy; however, Ukraine recently
announced that the moratorium on selling land from former collectives will not end until
January 1, 2016.

Although the contract does recognize the need for flexibility, AgroInvest has lost focus on the
priorities identified in its strategy. The staff prepared timely work plans outlining the key activities
to be undertaken each year, yet implementation of the activities has been delayed by ad hoc
requests. Examples include:

   At the mission's request, the policy component team prepared an additional framework
    assessment, which diverted time and resources away from the defined priorities under the
    component.

   A major stakeholder asked for assistance in establishing a social assistance framework
    similar to the U.S. Government’s food stamp program.

   At the mission’s request, AgroInvest began incorporating the concepts into the project. In
    particular, one concept (discussed in further detail below) was not fully developed, but


                                                                                                      9
   disrupted many areas of the project. Promoting this concept has taken up limited staff and
   financial resources that AgroInvest could have utilized in other areas of policy reform.

These ad hoc requests may not meet the criteria established in the strategic policy priority
needs assessment, such as whether the policy question has a reasonable likelihood of
implementation or whether it is appropriate for AgroInvest to address.

Ultimately, the Ukrainian Government is responsible for implementing policy reform. However, it
has not shown any interest in moving on the priorities that AgroInvest identified, such as U.S.
farm bill-type support, taxation, and subsidies. Without the government’s support, AgroInvest
has little control over the passage of new legislation.

It is evident from the lack of AgroInvest’s progress on its PMP indicators that the frequent
shifting of priorities has slowed the project. Addressing requests beyond established priorities
has used resources that could have produced greater results in other areas of the project.

Therefore, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Ukraine reassess AgroInvest’s policy
   priorities and implement a plan to achieve these priorities during the remainder of the
   contract.

Field Association Concept Poses
Serious Risks
Chapter 11 of the Foreign Assistance Act of 1961, as amended, outlines the U.S. Government’s
priorities for its support for economic and democratic development in the independent states of
the former Soviet Union. Among these priorities is the creation and development of private
enterprise and free market systems based on the principle of private ownership of property.

In Democracy and Governance: A Conceptual Framework, USAID states that the U.S.
Government “works to encourage democracy in developing nations throughout the world on the
basis of the ideals of liberty, personal and civic freedom, and government of, for, and by the
people.”

Article 41 of the Ukrainian Constitution states that “everyone shall have the right to own, use, or
dispose of his property.” It further states, “No one shall be unlawfully deprived of the right for
property. The right for private property shall be inviolable.”

In anticipation that the Ukrainian Government would lift its long-standing moratorium on the sale
of agricultural land in January 2012, a short-term technical assistance contractor hired by
Chemonics developed the field association concept. The contractor did so after recognizing that
even though farmers would be able to buy land once the land market opens, many would keep
leasing land.

Although a field association has been compared to a condominium or homeowners association,
it is more accurately described as an organization of landowners whose land forms a natural
contiguous field. Lessees would be required to deal directly with the association instead of the
individual landowners in all matters. Since participation in this type of association is mandatory,
an individual landowner who wants to work his or her own land would need to approach the



                                                                                                10
association for permission, and associations should only allow them to do so if it raised the total
value of leases for the owners. Therefore, associations could deny landowners the right to use
their land.

A USAID/Ukraine official readily accepted the association concept as the best—and only—
viable model to address this issue and encouraged AgroInvest to promote the concept despite a
lack of independent analysis, legal review, or consultation with other USAID/Ukraine offices,
such as the Office of Democracy and Governance. According to this official, no additional
economic, political, or social evaluations of this concept or development of alternative models
occurred because few experts were available to do such work. A legal review has not been
conducted since the concept is still in development.

While the concept paper does not identify any negative consequences that might arise from
implementation, some mission officials and AgroInvest employees said the concept is
incongruous with the Ukrainian Constitution. Prior to implementing it, USAID/Ukraine would
likely need to encourage a change in the Ukrainian Constitution. One AgroInvest employee
added that the concept threatens the land rights of Ukrainian citizens.

AgroInvest held a series of focus groups with landowners and farmers to determine their interest
in the concept. Reactions were mixed; some participants reportedly acknowledged the potential
benefits of an association, and others raised several concerns, like the sustainability of the
associations.

However, the results of some of the focus groups did not accurately reflect landowners’ feelings
about the concept because moderators did not tell participants that joining the associations
would be mandatory. The grantee leading those groups said it opted not to present that aspect
because they feared that protests or political complications might result from the implementation
of the concept. Additionally, they left it out because AgroInvest only required a study of the
public’s attitude toward the concept, and moderators felt this could be done without emphasizing
the need for mandatory participation.

USAID/Ukraine faces several serious risks with the association concept. If the mission
successfully implements it, this might encourage the violation of the land rights of Ukrainian
citizens as established in their Constitution. Furthermore, AgroInvest could contradict the goal of
its own communications program, which was designed in response to a contract requirement to
help citizens understand their land rights and provide legal assistance so rural landowners can
effectively defend them.

By not soliciting independent experts to study the concept, USAID/Ukraine and AgroInvest
remain unaware of its potential weaknesses or problems that might arise from its
implementation. Without a legal review, they risk promoting a concept that is inconsistent with
Ukraine’s current legal framework. Also, by not encouraging the development of alternative
concepts, USAID/Ukraine and AgroInvest have not considered the possibility of other viable
models that might be more appropriate for Ukraine.

Most importantly, the principles included in the association concept might not align with the U.S.
Government’s stated strategic priorities for the region.

To address the problems identified with the association concept, we make the following
recommendations.



                                                                                                11
    Recommendation 4. We recommend that USAID/Ukraine solicit the assistance of
    independent experts to review in writing the field association concept for economic,
    political, and social impacts, and to develop and document alternative models for
    consideration.

    Recommendation 5. We recommend that USAID/Ukraine refrain from allocating more
    resources to the field association concept until a full, independent legal review can be
    conducted. If this review deems that the concept is not in line with the Ukrainian
    Constitution, we recommend that USAID/Ukraine discontinue its work on it and
    document that determination.

    Recommendation 6. We recommend that USAID/Ukraine conduct an independent
    analysis of the field association concept to determine whether it is in line with the
    strategic priorities of the U.S. Government for the independent states of the former
    Soviet Union. As part of this analysis, USAID/Ukraine should vet the concept with
    appropriate U.S. Government officials at the Embassy and document the results.

AgroInvest Delayed Its Land Rights
Public Education and Outreach
Campaign
The AgroInvest contract for Component One, Task C, Provide Public Education for Land Rights,
states that it “shall develop a communications program that helps citizens understand their land
rights and shall support them with legal assistance in defined geographic areas so that rural
landowners in these target communities can effectively take actions to defend these rights.” An
expected result of this task is that people would have a better understanding of their land rights.

According to an AgroInvest progress report, USAID/Ukraine approved the project’s land rights
public education and outreach campaign strategy on August 8, 2011. The strategy identified its
primary and secondary target audiences, and outlined the campaign’s objectives. Those
objectives are to:

   Increase private plot holders’ awareness of current land rights and how to adequately plan
    for the land market so informed decisions about land sales and purchases can be made.

   Increase farmers’ awareness of how to protect farm holdings in the event of a land market.

   Educate target groups on the new legislation (once adopted) and its implications for their
    land rights, risks, and opportunities.

   Provide information to all target groups on locally available and trustworthy legal assistance.

The strategy calls for a baseline survey that measures land rights literacy in the target
audiences. According to the project’s work plan, AgroInvest was to conduct the survey during
November and December 2011, publish the results in January 2012, and use them to develop
the campaign. Also in January 2012, AgroInvest was to begin establishing a resource center
and hotline that would directly answer questions from landowners and farmers on current land
policy and markets issues, inventory existing land education materials and develop new ones,
and host a Web portal with information on legislation, frequently asked questions, reference



                                                                                                 12
materials, and more. The information campaign, including television and radio spots, would
begin the following month.

AgroInvest postponed the campaign for a variety of reasons. Mission officials did not approve
the questions in the original baseline survey because they did not believe they would provide a
fair, accurate representation of the level of awareness of land rights. Furthermore, the mission
decided to expand the survey’s scope to address aspects of all three components and approved
the new questionnaires in October 2012.

USAID/Ukraine and AgroInvest delayed establishing the resource center and hotline.
AgroInvest’s grant selection committee chose an organization to oversee the resource center in
January 2012, but the mission did not approve the grant until June 2012. Negotiations for
awarding the grant took several months because in addition to negotiating about a basic land
rights message, USAID/Ukraine officials insisted on inserting the concepts into the agreement.

Furthermore, as of October 15, 2012, AgroInvest had not yet awarded the subcontract for the
information campaign that will include television/radio programming, the hotline, and work with
press clubs. Mission officials and AgroInvest employees decided to wait until the Ukrainian
Government approved the wording of the draft law on the land market before moving ahead with
the campaign.

AgroInvest is moving into the third year of implementation and has lost valuable time and
opportunities to educate vulnerable landowners, particularly the approximately 6 million private
plot holders selected as the campaign’s primary target audience. According to the strategy, this
group is the most likely to give up their land (generally ranging from one to seven hectares),
lose their livelihoods, or sell their land for less than its value.

Without an approved baseline survey instrument, AgroInvest could not conduct the survey as
scheduled at the beginning of the project. Therefore, the project has no baseline from which it
can measure current levels of awareness of land rights or the effect of the outreach campaign.
Also, the resource center’s activities are still in their initial stages when they should be well
under way, and the time lost could have been spent providing important information to
landowners.

AgroInvest’s legal services providers confirm that rural landowners are still largely uninformed
about their land rights. Many have difficulty executing and enforcing their lease agreements. As
a result, they do not know how to protect their land rights and are vulnerable. Therefore, we
make the following recommendation.

   Recommendation 7. We recommend that USAID/Ukraine work with Chemonics
   International Inc. to immediately implement a public education and outreach campaign
   that focuses on basic land rights and can be expanded if and when the legislation on the
   land market is finalized.

AgroInvest Did Not Fully Leverage
Its Relationships With Financial
Institutions
The AgroInvest contract for Component Two, Stimulate Access to Finance, states, “Given the
absence of financial institutions committed to expanding agricultural lending, interventions in this


                                                                                                 13
component need to be facilitated around a number of promising opportunities” that will benefit
SMPs. The project is to collaborate with other donors and projects to “optimize impact of
technical assistance.” It provides an example of such collaborations:

        The Canadian International Development Agency [CIDA] has funded a quasi-
        leasing company dedicated to serve micro and small producers that offers
        improvements in technology, such as greenhouse and drip irrigation equipment.
        The company is expanding quickly, and could be a potential project partner.

Furthermore, USAID’s project design guidance states that sustainability should be built in from
the start and that the project should “leverage or mobilize ‘solution-holders’ and partners
strategically.”

Agency guidance such as ADS 219, Microenterprise Development, and USAID Forward’s
Implementation and Procurement Reform (IPR) explain ways that missions can increase
development assistance. ADS 219 primarily focuses on “extending and strengthening
microentrepreneurs' and other poor people's access to appropriate financial services.” IPR
Objective 2 includes strengthening “private sector capacity to improve aid effectiveness and
sustainability.” IPR further quotes the International NGO Training and Research Centre
definition of capacity development as “external intervention to improve an organization’s
performance, resources, and sustainability.”

As stated in AgroInvest’s Regulatory and Institutional Barriers for Increasing Access to Finance
for Small and Medium-Scale Producers, issued in June 2011, Ukrainian financial institutions
suffer from “limited liquidity and do not show levels of return on assets or return on equity
normally exhibited by banks able to substantially expand lending activity.” This lack of liquidity
also restricts medium- to long-term lending because interest rates are linked to short-term
capital.7 Without access to external, lower cost capital, financial institutions—especially credit
unions—cannot extend credit for longer periods of time. Currently, interest charged for short-
term loans ranges from 22.5 to 80 percent, which prices out SMPs that are not willing to obtain
high-interest credit, even taking into consideration increased productivity. Loans for modern
agricultural technologies (like equipment) that would improve production efficiency8 generally
are medium- to long-term.

AgroInvest provides technical assistance, but not grants or other assistance mechanisms, to
financial institutions. Though this is a vital activity, the assistance under Component Two is
incomplete because capital investment is not available. Mission officials expressed concern
about providing grants under Component Two because they believed it would create a market
distortion and they feared that credit unions may not have sufficient internal controls in place.
Though these are legitimate concerns, the project is providing training to its partner credit
unions to address identified internal control weaknesses.

Credit union associations agreed to take part in the project because they had discussed with
AgroInvest access to capital as a potentially viable option. Also, the contract specifically cites a
potential partnership with a company funded by CIDA. However, the project was not designed to

7
  The sources of capital for Ukrainian financial institutions include customers’ deposit accounts. These
accounts carry high interest rates. Therefore, to earn a profit, the financial institutions must assess higher
interest rates on credit products.
8
  According to AgroInvest, several organizations estimate that the average age of farm equipment in
Ukraine is more than 14 years.


                                                                                                           14
fully leverage these relationships because it did not include a capital assistance mechanism.

The majority of the banks that AgroInvest contacted were not interested in utilizing the project’s
technical assistance.9 Only three signed memorandums of understanding. Officials at some
banks said they would train their employees or prefer to receive technical assistance from
another donor. An official at one bank said it has no plans to hire credit officers to focus on
agriculture products and rejected AgroInvest’s invitations to training.

Also, Ukrainian banks have stringent lending requirements that make receiving credit products
difficult for many SMPs. For example, three banks denied applications from potential borrowers
even though they were recommended by a group that works with AgroInvest.

The banks do not appear to be interested in or capable of expanding their market share in
agriculture. As stated in AgroInvest’s regulatory and institutional barriers assessment, “It is
extremely difficult, if not impossible, to induce a bank to target a market such as Ukrainian
SMPs for additional credit . . . until such time as SMPs become a significant source of deposits
and retail income.”

Furthermore, the project’s strategy and action plan states, “Although banks and other financial
institutions are interested in the possibility of providing credit to SMPs and addressing the unmet
demand for credit, they will have limited ability to do so in the short-run period.”

In contrast, credit unions are concentrated in rural areas, and their customers are primarily
SMPs. Additionally, credit unions appear more willing and able to help their customers meet
lending requirements, like documenting cash flows.




            AgroInvest helped train credit union employees like these to assess
            creditworthiness to help give loans to members. (Photo by OIG,
            September 19, 2012)

9
   Some banks have expressed interest in the owner finance concept. However, the Ukrainian
Government announced that the moratorium on agricultural land would not be lifted until January 2016.
Therefore, AgroInvest may need to reassess the likelihood of this concept’s success since agricultural
land cannot be sold throughout the duration of the project.


                                                                                                   15
Activities with the credit unions have yielded the following positive results:

   Credit union employees were trained on assessing creditworthiness, new lending products,
    and new technologies for the agricultural sector.

   Credit unions offered courses to their members about the new lending products and
    technologies.

   Some credit unions have issued loans to their members to purchase greenhouse
    technologies.

Access to affordable capital for the credit unions and the CIDA-funded company could
potentially expand capacity building locally as intended by USAID Forward and fully leverage
other donor projects.

To address the problems identified in the project’s relationships with financial institutions, we
make the following recommendations.

    Recommendation 8. We recommend that USAID/Ukraine perform and document an
    analysis that considers the use of a microfinance instrument or grants to fully leverage
    partners under AgroInvest’s Access to Finance component.

    Recommendation 9. We recommend that USAID/Ukraine work with Chemonics
    International Inc. to reassess AgroInvest’s future relationship with commercial banks,
    dedicate more resources to activities with credit unions, and document the results.

AgroInvest’s Reported Results Did
Not Meet Data Quality Standards
ADS 200.6 defines performance management as “the systematic process of monitoring the
achievements of program operations; collecting and analyzing performance information to track
progress toward planned results; using performance information and evaluations to influence
decision-making and resource allocation.” ADS 203.3.11 recognizes the need to balance the
cost and quality of data to confirm that reported data are of “sufficiently high quality to support
the appropriate level” of making decisions.

According to ADS 203.3.11.1, key data quality standards for performance management and
credible reporting include:

   Validity: Data should clearly and adequately represent the intended result.

   Reliability: Data should reflect stable, consistent data collection processes and analysis
    methods over time.

   Timeliness: Data should be timely enough to influence management decision making at the
    appropriate levels.

AgroInvest measures the results of its activities through 30 performance indicators. However,
for many of these indicators, the reported results did not meet prescribed data quality standards
and cannot be attributed to USAID’s efforts.


                                                                                                16
Validity. Under its Access to Finance component, AgroInvest measures Number of new
borrowers and loans. AgroInvest’s partner banks and credit unions limit access to information
about their financial transactions because it is proprietary. So the project based results for this
indicator on partners’ summaries of credit transactions that provided no detail. This data cannot
be linked to unique individuals, making it difficult to determine an accurate number of new
borrowers and loans due to AgroInvest’s assistance.

AgroInvest also used this data to calculate Number of agriculture-related firms benefitting
directly from USG [U.S. Government] supported interventions, which tracks the number of
SMPs receiving training to improve their organizational effectiveness and ability to access
credit. In calculating the results for this indicator, AgroInvest included the number of people
attending training sessions on new loan products and 50 percent of the result for Number of
new borrowers and loans. Since the results are based on an estimate that cannot be verified
and lacks a direct link to AgroInvest’s assistance, it is difficult to claim that these beneficiaries
have benefitted directly from a U.S. Government-supported intervention.

Reliability. According to AgroInvest’s PMP, the project measures Number of rural landowners
reached by tracking those reached through mass media, office consultations, or targeted written
materials.

However, in its results for this indicator, AgroInvest reported on two tasks using two distinct
methodologies. Early in the project’s implementation, AgroInvest had a task that involved
educating journalists on land reform initiatives, with an emphasis on those that affected rural
areas. Since the program could not determine the number of rural landowners reached through
its media training events, AgroInvest estimated the results of this activity based on the number
of people the journalists’ outlets reached, the percentage of Ukrainians who live in rural areas,
and the percentage of the rural population that was believed to have access to the media.

In contrast, AgroInvest had another task offering legal services for landowners. For this task, it
began to report the number of rural landowners who received those services directly. That
number could, unlike the above estimated results, be reported with a high degree of accuracy.

It is difficult to compare the estimated results from the media training with the direct results of
how many people received legal assistance and arrive at an accurate, reliable number of rural
landowners reached through the project’s interventions.

Timeliness. Under the project’s third component, AgroInvest measures Value of investment (in
kind or otherwise) facilitated through producer group projects. AgroInvest plans to support these
groups through grants that cover no more than 25 percent of the costs of a project the group
designed. It then reports the remaining 75 percent of the project’s cost as the result of this
indicator.

AgroInvest reported generating $419,631 in investments through grant projects. However, as of
September 30, 2012, AgroInvest had not awarded any grants to producer groups. Until these
grants are awarded, AgroInvest should not include them among the project’s accomplishments.

USAID/Ukraine relies on discussions with AgroInvest staff to validate these results. Although
mission officials annually review the results for reasonableness, they do not review them for
accuracy. USAID/Ukraine relies on AgroInvest’s reported results to make informed decisions
about the project’s progress. Because of extensive implementation delays, AgroInvest only


                                                                                                  17
recently began to report significant results from its activities. But the results were not measured
accurately, lacked direct links to the activities, and were reported too early to reflect the true
accomplishments of the project’s interventions.

Because of the problems listed above, USAID/Ukraine risks making programming decisions for
the AgroInvest project based on weak data. To confirm that AgroInvest’s reported results
accurately represent the progress of its activities, we make the following recommendation.

   Recommendation 10. We recommend that USAID/Ukraine work with Chemonics
   International Inc. to implement a plan to verify that the results reported by AgroInvest
   comply with the data quality standards outlined in Automated Directives System
   203.3.11.1.




                                                                                                18
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Ukraine has made management decisions on all ten recommendations and has taken
final action on Recommendation 7. However, as discussed below, we disagree with the
mission’s management decisions on Recommendations 3, 4, 6, 8, and 9.

Recommendation 1. The mission agreed with the recommendation to streamline the subaward
process. To address the issues identified, Chemonics hired a new grants manager with previous
experience managing USAID grants. Also, USAID/Ukraine and the Chemonics home office will
review the current grant process to find ways to streamline the process. The target date for
completing the revision of the grants process was March 1, 2013. The mission has made a
management decision for this recommendation.

Recommendation 2. The mission agreed with the recommendation to work with Chemonics to
provide and document training for Agroinvest staff on relevant USAID regulations. To address
the recommendation, Chemonics is in the process of hiring an environmental expert who will
assist the AgroInvest project on a part-time basis to develop high-quality environmental impact
assessments and environmental mitigation and monitoring plans. USAID/Ukraine expected that
this expert would begin no later than March 1, 2013. The target date for responding to the
recommendation was March 15, 2013. The mission has made a management decision for this
recommendation.

Recommendation 3. The mission disagreed with the recommendation to reassess Agroinvest’s
priorities and implement a plan to achieve those priorities during the remainder of the project. In
fact, mission officials said they do not see any need to reassess them.

According to the AgroInvest contract, Chemonics was to “produce a market-oriented, WTO-
compliant policy strategy and help the [Ukrainian Government], the Parliament of Ukraine, and
other state agencies, as well private organizations, implement this strategy.” In response to this
requirement, Chemonics released its September 2011 strategic priority needs assessment,
which outlines five key policy areas to be undertaken during the course of the project. As
discussed in the finding, the AgroInvest project lost focus on several areas because instead of
working toward the priority areas identified in its assessment, officials decided to pursue policy
issues as they arose.

The contract further stipulates that the project would update its policy reform strategy regularly.
However, this has not happened.

Our recommendation asks that USAID/Ukraine work with the AgroInvest project to update its
policy priorities and implement a plan to achieve them. We believe that by defining its priorities
for the remainder of the contract, AgroInvest will be able to meet its component goal of creating
less volatile and more market-oriented agricultural policies that result in increased investment.

The mission has made a management decision that it will not reassess the priority policy areas
for the Agroinvest project and implement a plan to achieve those priorities during the remainder
of the contract. We disagree with this decision.



                                                                                                19
Recommendation 4. In its response, USAID/Ukraine did not clearly express its position on the
recommendation that it solicit the assistance of independent experts to review the field
association concept. Nevertheless, according to the mission, the recommendation has been
fully addressed because the concept has been presented to and favorably received by USAID
Washington, the European Bank for Reconstruction and Development, the World Bank, and
Ukrainian experts.

However, we do not believe that the fact that these organizations and people favorably received
the presentation constitutes agreement on their part, especially with the concept of mandatory
participation in such associations.

Also in its response USAID/Ukraine asserts that several models of owners associations were
and are under consideration, among them one that calls for mandatory participation. However,
USAID/Ukraine officials and the concept’s author stressed the necessity of mandatory
participation. The author’s concept paper describes the model:

       A Field Association would be a mandatory organization of lessors in a field.
       Much like a condominium or neighborhood association for residential property
       owners (or a Marketing Order in agriculture), those owning land in a field would
       be required to belong to the Field Association unless they were also the
       lessee(s). Another way of conceiving of a Field Association is that lessees would
       be required to deal directly with the Field Association, rather than individual
       landowners.

Although the mission’s response states that USAID/Ukraine has considered—“and will continue
to consider”—all options relating to land tenure, at the end of our fieldwork a key USAID/Ukraine
official explained that because of a lack of qualified experts, no one had been brought on to
review the concept.

In its response, USAID/Ukraine acknowledges the controversial nature of land reform. For this
reason, we believe it is important to thoroughly review and document the potential economic,
political, and social impacts of the field association model or any other viable model that
USAID/Ukraine considers. The mission’s management decision is effectively to take no action
on this recommendation. We disagree that this recommendation has been fully addressed and
disagree with this management decision.

Recommendation 5. The mission agreed with the recommendation that it refrain from
allocating more resources to the field association concept until a full, independent legal review
can be conducted, and, if this review deems that the concept is not in line with the Ukrainian
Constitution, that the mission discontinue its work on it. To address the recommendation,
Chemonics included plans for a comprehensive legal review in its approved fiscal year 2013
work plan. The target date for the completion of the review is April 30, 2013. The mission has
made a management decision on this recommendation.

Recommendation 6. In its response, USAID/Ukraine did not clearly express its position on the
recommendation that it conduct an independent analysis on the field association concept to
determine whether it is in line with the strategic priorities of the U.S. Government for the
independent states of the former Soviet Union, and that, as part of this analysis, it vet the
concept with appropriate U.S. Government officials at the Embassy. The mission’s response
indicated that it considered the recommendation “addressed.”


                                                                                              20
However, we consider that this response signals its disagreement. According to the mission’s
response, Embassy officials have been briefed on the association concept, and no issues
surfaced about the concept running counter to U.S. Government priorities for the area.

In its response, USAID/Ukraine acknowledges the controversial nature of land reform in
Ukraine. The Ukrainian Constitution stresses that the right of private property shall be inviolable.
U.S. Government guidance for development assistance in the region echoes the importance of
the principle of private ownership of property. USAID/Ukraine officials and Chemonics staff
admit that the Ukrainian Constitution would likely need to be amended to implement the field
association concept. A key AgroInvest staff member also expressed concern that implementing
it would violate the land rights of Ukrainian citizens.

Although USAID/Ukraine stressed that it briefed Embassy officials on the concept, this does not
constitute agreement on their part, especially concerning the issue of mandatory participation in
field associations. The project’s main contact within the economic section of the Embassy prior
to October 2012 knew very little about the concept. Furthermore, although USAID/Ukraine’s
Office of Democracy and Governance also works with policy issues, representatives from that
office had no knowledge of the field association concept or its potential impact.

USAID/Ukraine has effectively made the management decision that it will take no action on this
recommendation, we disagree with that decision.

Recommendation 7. In its response, USAID/Ukraine did not clearly express its position on the
recommendation that it immediately implement a public education and outreach campaign that
focuses on basic land rights and can be expanded if and when the legislation on the land
market is finalized. However, we consider that the mission’s response to the recommendation
signals its agreement. The AgroInvest project issued a subcontract on December 14, 2012, that
launched the campaign. A management decision has been made on this recommendation, and
final action has been taken.

Recommendation 8. The mission disagreed with this recommendation to perform and
document an analysis of using a microfinance instrument or grants to fully leverage partners. In
its response, USAID/Ukraine said it considered spending limited resources on technical
assistance to be more efficient than subsidizing credit unions’ interest rates through grants. The
mission also said the experience of other regional missions has shown that providing grants did
not lead to sustainable results or decreased interest rates.

The credit unions and credit union associations interviewed during the audit expressed their
appreciation for the technical assistance received from the AgroInvest project. However, access
to affordable capital remains a challenge that results in low levels of lending to SMPs. A
microfinance instrument or grants to credit unions are two potential ways to stimulate access to
financial services for these producers.

The mission has made a management decision to take no action on this recommendation. We
disagree with this decision.

Recommendation 9. The mission agreed with the recommendation to (1) reassess
Agroinvest’s future relationship with commercial banks and (2) dedicate more resources to
activities with credit unions. However, although its response indicated that it considered this
recommendation addressed because Agroinvest was limiting its technical assistance to


                                                                                                 21
three partner banks and was remaining open to partnering with other banks in the future, the
response did not indicate whether the mission intended to perform the recommended
reassessment. While a management decision has been made on this recommendation, we do
not agree with that decision.

Recommendation 10. The mission agreed with the recommendation to implement a plan to
verify that the results reported by Agroinvest comply with data quality standards. In
December 2012 Chemonics assigned its monitoring and evaluations expert to work with
USAID/Ukraine and AgroInvest field staff to develop a plan that will ensure that the project’s
reported PMP data comply with ADS requirements. The target date for the development of the
plan was March 1, 2013, and the target date for its full implementation is June 30, 2013. A
management decision has been made on this recommendation.




                                                                                           22
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objectives. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether USAID/Ukraine’s AgroInvest project is
achieving its main goals of accelerating broad-based economic recovery through activities that
support a stable, market-oriented policy environment; stimulate access to finance; and facilitate
market infrastructure for SMPs. On January 25, 2011, USAID/Ukraine awarded a 5-year,
$20.61 million, cost plus fixed-fee term level of effort contract to Chemonics to implement
AgroInvest. On August 10, 2012, USAID/Ukraine modified the contract to revise the scope and
decrease the total estimated cost of the project by $1.85 million to $18.76 million. As of
September 30, cumulative obligations and disbursements under AgroInvest totaled
$13.43 million and $4.57 million, respectively. Because this was a performance audit looking at
project implementation rather than specific financial transactions, the audit team did not audit a
specific portion of the $4.57 million in disbursements.

OIG conducted audit fieldwork in Ukraine from September 12 to October 19, 2012. We
conducted our fieldwork at USAID/Ukraine and Chemonics’ offices in Kyiv and at partner and
beneficiary sites in and around the cities of Kyiv, Dnipropetrovsk, Zaporizhzhya, Simferopol,
Kherson, Chernivsti, and Rivne. Our fieldwork covered the period from January 25, 2011, to
September 30, 2012.

In planning and performing the audit, we assessed management activities and controls
established by USAID/Ukraine and Chemonics. In doing so, we reviewed annual work plans, the
PMP, progress reports, data quality assessments, and monitoring reports. We reviewed
USAID/Ukraine’s fiscal year 2011 and 2012 annual self-assessments of management controls
for its economic growth office. In addition, we assessed the implementing partner’s activities to
address any problems related to trafficking in persons and gender inclusion.

Methodology
To answer the audit objective, we obtained an understanding of what USAID/Ukraine intended
to accomplish through AgroInvest. We interviewed the COR and technical team responsible for
overseeing the project. We interviewed USAID/Ukraine’s contracting officer, director of the
Office of Democracy and Governance, countering trafficking in persons specialist, gender
specialist, and mission environmental officer. We interviewed Chemonics’ personnel responsible
for the project’s activities and met with officials from the Ministry of Agrarian Policy and Food.

We assessed USAID/Ukraine’s management of the project by reviewing applicable policies and
strategic plans, annual work plans, quarterly and annual progress reports, and other documents
produced by USAID/Ukraine and Chemonics. We performed site visits of project beneficiaries to
observe and discuss the progress and impact of the activities. We judgmentally selected sites



                                                                                               23
                                                                                  Appendix I


based on geography and activity levels representing the various components of the project. We
compared the expected results with the reported results. We determined the accuracy of the
reported results by comparing them with the supporting documentation maintained in
Chemonics’ Kyiv office.




                                                                                          24
                                                                                        Appendix II



MANAGEMENT COMMENTS


January 16, 2013

MEMORANDUM

TO:            Steven Ramonas, IG/A/PA Director

FROM:          E. Jed Barton, Mission Director, USAID/Ukraine /s/

SUBJECT:       Audit of USAID/Ukraine’s AgroInvest Project (Report No. 9-121-13-00X-P)


This Memorandum transmits the Mission’s response to the OIG’s draft report on the audit of
USAID/Ukraine’s AgroInvest Project implemented by Chemonics International, Inc.

The stated objective of this audit, as outlined in the OIG’s audit notification letter and the audit
draft report, was to determine whether USAID/Ukraine’s AgroInvest project is achieving its main
goal of accelerating broad based economic recovery through activities that support a stable,
market-oriented policy environment; stimulate access to finance; and facilitate market
infrastructure for small and medium producers.

Following are the Mission’s comments on the findings of the audit and on the draft report’s
recommendations.


Audit Findings and Recommendations:

Finding #1. Subaward Processes Contributed to Project Delays

Mission’s feedback: While the Mission agrees with this finding in general, the accompanying
audit report narrative does not seem to present full analysis of factors that contributed to delays
in subaward processes. Many of the report statements simply state that delays took place or
seem to focus primarily on the administrative part of the grant process.

At the same time, it is important to take into account the technical and capacity building work
that AgroInvest is doing to assist its grantees to become more sustainable as organizations.
This work starts from the day of first review of grant applications. The key purpose of providing
grant support by AgroInvest project regardless of types of grantees is to build capacity of local
organizations to better perform their roles as policy advocates, service providers, etc. The
majority of initial applications received in response to grant solicitations were extremely weak.
They mainly called for addressing very basic needs of applicants (staff salaries, office rent,
equipment, etc) and did not request support to pursue substantive goals, strategies or



                                                                                                  25
                                                                                         Appendix II


organizational sustainability. To remedy those weaknesses, the AgroInvest team worked
intensively with each of the short-listed applicants to help them better determine goals and
strategies to be supported in order to strengthen applicants as organizations and achieve sector
impact as a result of a grant activity. It is important to note that most of the applicants are well
known sector associations and other types of NGOs experienced in working in the agriculture
sector. At the AgroInvest design stage USAID planned to strengthen such organizations through
grants and expected to disburse a large portion of those grants during the first two years of
award. However, the degree of applicants’ internal weaknesses could not be envisioned at the
design stage. The Mission considers weak grant proposals as the most significant, though not
the only, factor that contributed to delays in subaward process. The audit report does not
provide its own analysis of the technical part of grants process and only quotes AgroInvest staff
and COR who raised the issue of weak proposals as an important obstacle that contributed to
delays.

Another significant factor that contributed to delays was lack of USAID grant management
experience of locally hired staff. To clarify, this statement primarily applies to local grants
management team of AgroInvest, and to a lesser extent to component leaders who, in fact,
manage the technical work mainly and not necessarily need to be intimately familiar with USAID
grants regulations.

The audit report overestimates the influence of USAID’s technical direction on grant award
delays in general. For example, the Summary of Results section states that USAID’s request to
incorporate the two land reform concepts into the grantees’ scopes of work resulted in delaying
grants for critical activities. In fact, USAID requested that only one grantee adds those activities
to its SOW. As the activity under that subgrant had a major focus on land reform, USAID
considered it important to add a few activities to explore proposed approaches to resolving
critical land issues, such as lack of financing and the vulnerable position of almost 7 million
private land owners.

The audit makes the following recommendations with regard to this finding:

       1. We recommend that USAID/Ukraine work with Chemonics International,
          Inc. to implement a plan to streamline the subaward process for the
          AgroInvest project.

The Mission agrees with this recommendation. The issue of limited USAID grants experience by
AgroInvest local staff has been recently addressed by hiring a new grants manager to replace
one of the grants staff who resigned for family reasons in November. The new grants manager
has solid hands-on experience of USAID grants management under other USAID projects. In
addition, the Mission, together with Chemonics home office and AgroInvest field team, will
review the current grant process to identify opportunities to streamline the process. The target
completion date for revising the grants process is March 1, 2013.

       2. We recommend that USAID/Ukraine work with Chemonics International
          to provide and document training to AgroInvest staff on relevant USAID
          regulations for the awarding of subawards, such as conducting
          environmental review and assessment checklists.

The Mission agrees with this recommendation. We recognize that AgroInvest does not have
staff with experience or background in conducting environmental impact assessments, which


                                                                                                  26
                                                                                       Appendix II


contributed to delays in obtaining the Mission’s clearances for subgrants to producer
organizations. Chemonics is in the process of selecting an environmental expert who will be
engaged on a part time basis to assist AgroInvest team with developing high quality
assessments and EMMPs for upcoming subawards. The expert is expected to start working not
later than March 1 2013 and will be additionally trained by the Mission MEO in specific USAID
environmental compliance requirements. The target completion date for responding to this
recommendation is March 15, 2013.


Finding #2. Shifting Priorities Hampered Market-Oriented Reforms

Mission’s feedback: The Mission disagrees with this finding.

Success in a technical assistance project’s policy work hugely depends on cooperating country
government’s changing policy agenda. At the beginning of its implementation AgroInvest
identified policy areas to get engaged in depending on the government’s priorities and their
potential impact on the sector. Those areas were presented in the Strategic Policy Priority
Needs document issued in September 2011. Later, in close coordination with the GOU’s
existing policy priorities and taking into account the significance of their potential economic
impact, AgroInvest has concentrated its efforts on two major policy areas: land reform and
agricultural cooperatives development. While deciding to narrow AgroInvest’s focus to these two
priorities we utilized the selection criteria established by Strategic Policy Priority Needs
document and quoted by the audit report. We would like to stress that the Mission has been
consistently focused on these two policy priorities and did not direct AgroInvest to shift to any
other policy areas.

The importance of agricultural land and land policy to Ukraine’s economic development and
USG priorities cannot be overestimated. There has not been an operative agricultural land
market in Ukraine for nearly a century. Agricultural land accounts for over 70 percent of the
area of Ukraine and is arguably the primary natural resource of Ukraine, much like oil is for
Saudi Arabia. Private individuals own three quarters of this land. The landholdings are small,
averaging 4.2 hectares, and, with few exceptions, not economically viable on a standalone
basis. There are 6.8 million land owners, most of whom are elderly and impoverished. Nearly
all of this land is leased to agricultural enterprises. Regardless of how well the land sale market
operates, cultivators will lease the large majority of the land for the foreseeable future, perhaps
forever.

The preeminent factor which will influence the development of Ukraine’s agricultural sector is
the efficiency and equity of the agricultural land lease and sale markets. Moreover, efficient and
equitable land sale and lease markets would enhance the welfares of current landowners and,
importantly, make land attractive as long term investments for millions of Ukrainians, both urban
and rural. For these reasons, USAID/Ukraine has made this the central focus of AgroInvest’s
work.

Another critical policy area that AgroInvest focused on since inception is agricultural cooperation
as an important mechanism to increase productivity, sales, and income by small and medium
agricultural producers.

Other identified policy priorities, while significant, stood lower on the government’s policy
agenda and therefore had less likelihood to be moved forward over the past year. For this
reason, AgroInvest did not spend much effort on those less promising areas. The audit report


                                                                                                 27
                                                                                       Appendix II


narrative fully supports this approach.

Significant progress has been achieved in both of these priority policy areas. As a result of
AgroInvest’s consistent focus on the two policy areas, a draft land market law was improved and
legislation regulating agricultural cooperation was adopted. Both of these successes are
recognized in the Summary of Results section of the audit report. These are reforms that will
have an impact on millions of Ukrainians and stimulate agricultural sector development.
While recognizing the importance of land reform for development of agriculture sector in Ukraine
in the Summary of Results section, the audit report further seems to describe AgroInvest’s focus
on land as one of the major factors that contributed to limited successes in other policy areas.
This conclusion is not supported by facts.

Activities and concepts described by the audit report as ad hoc requests either provided
important information on the status of land governance system in Ukraine both to the project
and the GOU or were aimed to address major issues facing Ukrainian land owners and farmers.
Namely, the Land Government Assessment Framework (LGAF), owner financing concept, and
land owners associations concept are in line with promoting a transparent and efficient land
reform as the established policy priority. Virtually all policy recommendations put forth by
AgroInvest/USAID were reviewed by a wide spectrum of Ukrainian experts and incorporated
into LGAF and, because of this, more widely communicated to stakeholders. The work on LGAF
by AgroInvest was not, as characterized in the IG Audit Report, a diversion and dilution of effort
from established priorities, but rather, an opportunity to advance work on the project’s central
priority area more effectively. Also, the audit report is not clear on what activities were delayed
or results not achieved as a result of implementing these tasks.

Finally, a major stakeholder’s request for assistance in establishing a social assistance
framework was limited to bringing a US expert for a few days to present the US Government’s
Food Stamp Program and discuss its applicability for Ukraine with major stakeholders and
GOU. It is not clear how this limited activity contributed to project delays with implementing
other tasks, as stated in the audit report.

The audit makes the following recommendation with regard to this finding:

       3. We recommend that USAID/Ukraine reassess AgroInvest’s policy
          priorities and implement a plan to achieve these priorities during the
          remainder of the contract.

We disagree with this recommendation. As explained in the Mission’s comments above, in order
to succeed in policy work, AgroInvest is focusing on areas that have significant likelihood to be
reformed and have major potential impact on the sector. Land reform and policies for
cooperatives development will remain those priority areas at least during the next year. Despite
the fact that the agricultural land sales moratorium has been extended through January of 2016,
the GOU is now moving forward with drafting new legislation that will govern the future land
market and will have impact on 7 million land owners. The GOU is also continuing to improve
legislation for agricultural cooperatives, looking at further streamlining of tax procedures for
them. AgroInvest will stay actively engaged in these two policy areas.

In addition, the GOU has recently requested AgroInvest’s assistance in developing an effective
strategy for development of wholesale agricultural markets across Ukraine. As wholesale
market legislation has been defined as one of AgroInvest’s policy priorities, we plan to provide



                                                                                                28
                                                                                         Appendix II


requested assistance to the government over the coming year. The GOU’s interest in
implementing reforms in other policy areas identified by AgroInvest as priority remains to be
seen and AgroInvest will consider its engagement in them should opportunities arise. Therefore,
we do not see the need in spending time and limited resources on reassessing AgroInvest’s
policy priorities now.

Finding #3. USAID/Ukraine and AgroInvest Face Several Serious Risks With Field
Association Concept

Mission’s feedback: The IG audit report asserts that “USAID/Ukraine has not sought the
opinion of other independent experts on the Association concept.” As the IG Auditors are
aware, there have been close and continuing consultations with the World Bank in Ukraine on
both Owners Associations and Owner Financing. In addition, and at the request of World Bank,
a presentation on the approaches was made at World Bank Headquarters in Washington, DC.
The World Bank and the EBRD are supportive. The approaches have also been vetted by a
panel of Ukrainian land experts as part of the LGAF process. Most importantly, the approach
has the strong support of the Minister of Agriculture and several prominent members of the
Ukrainian Parliament.

The IG report further asserts that field associations were all mandatory. In fact, several models
of associations have been under consideration, among them a model with mandatory
participation.

Landowners almost universally agree that they have little or no negotiating power with farmers
and receive very low lease rates (averaging $17 per acre per year) and that their condition could
be improved by organizing. In focus groups and other contacts with landowners, we have
found considerable support, but also and not unexpectedly, concerns. A sizable minority of
landowners cherish the unrealistic hope the Government will dictate favorable lease rates and
institute other protections for their land or even purchase the land for high prices, rather than the
landowners having to take action themselves. And, of course, all reasonable landowners are
concerned about the terms of any association and there is the need to reassure and
convincingly demonstrate that an association would support, rather than contravene free market
principles and would, in no way, represent a return to the Socialist past. In these regards, there
is controversy, but, again, considerable support among landowners, in the Government, and
with the World Bank. We conclude from this the need to continue exploring the approach,
including soliciting comments from stakeholders and conceptual work on implementation
approaches, rather than a signal to abandon this important initiative.

The audit makes the following recommendations with regard to this finding:

       4. We recommend that USAID/Ukraine solicit the assistance of
          independent experts in writing to review the field association concept
          for economic, political and social impacts and to develop and document
          alternative models for consideration.

We consider this recommendation addressed. The field association concept has been reviewed
favorably by experts at USAID Washington, the EBRD, World Bank and Ukrainian expert
participants in the LGAF discussions. USAID/Ukraine has repeatedly asked the implementer to
provide alternative models, but they, nor the World Bank or any other donors have offered any
viable alternative. USAID has considered, and will continue to consider, all options related to



                                                                                                  29
                                                                                       Appendix II


rationalizing land tenure that achieve the following two goals in accordance with our larger
formal objective of broad-based economic development: 1) assist Ukraine in reaching its
enormous production potential; and 2) develop market mechanisms to ensure that landowners
receive a fair market payment for the efficient utilization of their resources. The two goals are
mutually inclusive.

Owners Associations has the potential of:
•      Greatly improving the efficiency of the agricultural land lease market. Of particular
importance, in this regard, is reducing extremely high transactions costs borne by both lessors
and lessees.

•      Markedly higher payments for leases, from their current, near-token levels (averaging
$17 per acre annually). Importantly, lease rates would correlate with the economic value of the
land.

•       Facilitating measures to protect soil fertility and to ensure maintenance and upgrade of
fixed investments, such as drainage ditches.

•      Enhancing agricultural land values to levels consistent with the land’s inherent economic
value.

•      Making agricultural land a viable long-term investment for millions of Ukrainian citizens.

•       Facilitating a gradual, market-based, transformation from the current highly concentrated
pattern of agricultural enterprises to one more conducive to modern, competitive agriculture.

Simply put, without Owners Associations to offset the extreme market power of lessees, millions
of Ukrainians will continue to be denied the large majority of the value of their landholdings and
the agricultural sector will continue to be characterized by high rates of soil degradation and low
investment and productivity. This egregious market failure in the leasing market has created a
de facto Latifundia of lessees. To convey a sense of the extent to which this is true, the ten
largest agricultural enterprises in Ukraine control an area larger than New Jersey (or 129 times
the size of the District of Columbia). Owners Associations can establish the conditions to
reverse these problems. The World Bank, the Minister of Agriculture, the panel of Ukrainian
experts who worked on LGAF, and others concur with this assessment.


       5. We recommend that USAID/Ukraine refrain from allocating more
          resources to the field association concept until a full, independent legal
          review can be conducted. If this review deems that the concept is not in
          line with the Ukrainian Constitution, we recommend that USAID/Ukraine
          discontinue its work on it and document that determination

We agree with this recommendation. A comprehensive legal review of the field associations
concept is included in AgroInvest’s FY2013 approved work plan. The expected deadline for
completing this analysis is April 2013.

       6. We recommend that USAID/Ukraine conduct an independent analysis on
          the field association concept to determine whether it is in line with the
          strategic priorities of the US Government for the independent states of


                                                                                                30
                                                                                        Appendix II


           the former Soviet Union. As part of this analysis, USAID/Ukraine should
           vet the concept with appropriate US Government officials at the
           embassy and document the results.

We consider this recommendation addressed. USAID Ukraine has briefed Embassy officials on
the field association concept several times. There has never been any question about the
concept running counter to “strategic priorities of the US Government for the independent states
of the former Soviet Union”.

Finding #4. AgroInvest Delayed Its Land Rights Public Education Campaign

Mission’s feedback: Over the past two years the GOU has been amending existing and draft
legislation that regulates land governance so intensively that if launched earlier, the land rights
education campaign would have had to have been refocused continuously. For example, the
GOU adopted legislation on new system of immovable property registration and established a
new State Registration Service in early 2011. Since then this legislation was amended several
times. In addition, for the past two years there has been a lack of certainty about the date for
lifting the agricultural land sales moratorium and there was no approved law in place to set rules
for the to-be-established land market. Only recently did the GOU extended the moratorium to
January 2016 and made a decision to draft completely new legislation to regulate the land
market instead of the current draft Law on Land Market. Given this volatile legislative
environment, the Mission made a decision to delay the land rights education campaign as its
messages would have had been changed innumerably, rendering it incapable of achieving its
ultimate goal to educate almost 7 million of land owners about their property rights. Now that
there is more clarity in the legal situation with regard to land, AgroInvest is moving forward with
the land rights education campaign. In addition, the baseline survey is in the field and its results
are expected by February 2013.

The audit makes the following recommendation with regard to this finding:

       7. We recommend that USAID/Ukraine work with Chemonics International,
          Inc. to immediately implement a public education and outreach
          campaign that focuses on basic land rights and can be expanded if and
          when the legislation on land market in finalized.

The land rights education campaign has been launched. A respective subcontract has been
signed on December 14, 2012.

Finding #5. AgroInvest Did Not Fully Leverage Its Relationships with Financial
Institutions

Mission’s feedback: Agricultural lending is considered to be risky worldwide and especially in
Ukraine. Lack of solid collateral, outdated technologies used by producers, poor contract
enforcement, and an unstable regulatory environment are the key risks that limit agricultural
lending to small and medium producers in this country. In addition, the Ukrainian financial sector
is recovering from the economic crisis very slowly and interest rates are extremely high across
all sectors of economy. In agriculture, they are even higher than average as a result of the
abovementioned risks. AgroInvest is working with its partners (both financial institutions and
agricultural producers) to help them develop instruments and approaches that would reduce
some of the critical risks. In particular, the project is concentrating on increasing understanding


                                                                                                 31
                                                                                          Appendix II


of financial institutions about specifics of agricultural technologies, as well as educating farmers
about modern advanced technologies. This combined effort helps financial service providers to
more accurately assess risks and stimulates producers to apply for loans to finance
procurement and installation of modern technologies and equipment, in turn adding confidence
to financial institutions on the likelihood of credit repays. As a result, lending grows and interest
rates go down due to more realistic assessment of risks of particular credits.

During the AgroInvest design stage the Mission put major focus on the provision of technical
assistance, and training to stimulate increased access to finance and planned to leverage
capital for micro financing from other partners such as ACM (named CIDA funded company in
the audit report) and EBRD. Initially ACM did not express interest in receiving technical
assistance from AgroInvest as it had partnered with another CIDA funded project. As that
project is soon coming to its end, ACM has notified AgroInvest about potential interest in
partnership in the near future.

AgroInvest also signed an MOU with EBRD to work with their newly launched Micro Loan
Program for agricultural producers. As soon as EBRD completes due diligence studies for its
Ukrainian partner banks, we expect to be able to leverage substantial credit resources from this
program by linking AgroInvest producer partners with EBRD partner banks.

The audit makes the following recommendations with regard to this finding:

       8. We recommend that USAID/Ukraine perform and document an analysis
          that considers the use of a microfinance instrument or grants to fully
          leverage partners under AgroInvest’s Access to Finance component.

We disagree with this recommendation. We consider it more efficient to spend limited resources
on technical assistance as it has larger impact than subsidizing credit unions’ interest rates
through grants. In addition, experience of other regional missions has shown that provision of
similar grants did not lead to sustainable results nor it did not help to considerably decrease
high interest rates. For these reasons we do not consider moving forward in that direction.

       9. We recommend that USAID/Ukraine work with Chemonics International,
          Inc. to reassess Agroinvest’s future relationship with commercial banks,
          dedicate more resources to activities with credit unions, and document
          the results.

We agree with this recommendation. AgroInvest has already limited its technical assistance to
three partner banks that have expressed strong interest in receiving this assistance. At the
same time, the project will remain open for partnering with other banks should they request
assistance in the future. This is reflected in the approved project’s work plan for FY2013.
Therefore, we consider this recommendation addressed.

Finding #6. AgroInvest’s Reported Results Did Not Meet Data Quality Standards

We will implement a plan to ensure that reported PMP data meet ADS standards.

       10. We recommend that USAID/Ukraine work with Chemonics International,
          Inc. to implement a plan to verify that the results reported by AgroInvest



                                                                                                   32
                                                                                  Appendix II


          comply with the data quality standards outlined in Automated Directives
          System 203.3.11.1.

We agree with this recommendation. At no cost for USAID, in December 2012 Chemonics has
assigned its M&IE home office expert to work with AgroInvest field staff and USAID/Ukraine to
develop a plan to ensure that AgroInvest’s reported PMP data comply with ADS requirements.
The plan is expected to be developed and approved by March 1, 2013 and fully implemented by
June 30, 2013.




                                                                                          33
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
